NO.20-8017
IN THE SUPREME COURT OF THE UNITED STATES
SUBRINA BRENHAM, ET AL PETITIONER
V.

JOSEPH KEMP, ET AL RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES SUPREME COURT

PETITION FOR REHEARING

SUBRINA BRENHAM
6621 LAGRANGE DRIVE
DALLAS, TEXAS
214-900-7327

!

DECEIVED
AUG -6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

IN THE SUPREME COURT OF THE UNITED STATES
CASE NO. 20-8017
SUBRINA BRENHAM
PETITIONER,
V.
JOSEPH KEMP, ET AL
DEFENDANTS.

ON JUNE 28, 2021, the Petitioner, Subrina Brenham's petition for a Writ of Certiorari was
denied.
PETITIONER MOTION FOR REHEARING OF WRIT OF CERTIORARI
Pursuant to Rule 44 of this Court, I Subrina Brenham pro-se hereby respectfully petitions the
rehearing of this case before a full Nine-Member Court.

This case involves a challenge of a decision rendered by The Court of Appeals for the Fifth
District Dallas, Texas in 2019. (Herein after called The Fifth Circuit Court) The Fifth Circuit Court
reversed the decision made by the Dallas Civil Court ruling in favor of the defendant, Kemp. I
appealed this decision to the Texas Supreme Court. The Texas Supreme Court confirmed the
decision of the Fifth Circuit Court. Next, I filed my petition seeking to obtain a Writ of Certiorari
from the United States Supreme Court. My petition for a writ of Certiorari was denied on June

28, 2021.

First, I appealed the Fifth Circuit Court decision and the Texas Supreme Court decision because
one of the judges who rendered the Fifth Circuit Court decision, Judge Barbara Rosenberg was
one of Dallas County attorneys representing the City of Dallas, and the Defendant Kemp when

1

I filed a Court case to obtain a TRO in 2015. I was attempting prevent the City of Dallas for
providing the financing using tax payer money to Defendant/Kemp's to enabled Kemp to
purchase the strip mall located in the Highland Hills Community. I had in 2015 two businesses
located in the strip mall location for 13 years.

Second, when I discovered that Barbara Rosenberg was one of the judges who rendered the
Decision in my Fifth Circuit Court 2018/2019 case I was especially upset, when I learned she
had not recused herself.

Judge Barbara Elaine Rosenberg and I have

known each other

personally for several years and our relationship was often in conflict i. e., where Judge Barbara
Rosenberg was representing as a lawyer, legal counsel for the City of Dallas. One example,
happened on May 27, 2015, when I was the candidate for the Dallas City Council for District 8.
I lose the election. After, I lose the election I filed a complaint alleging that there were instances
of election fraud. As a result of my allegation of election fraud a hearing was held and attorney,
Barbara Rosenberg was the attorney who represented the City of Dallas during the hearing.
Attorney Rosenberg was the Attorney who cross examined me during the election fraud
hearing. We, Judge Barbara Rosenberg, and I have had years of a contentious personal and
business relationship.

Third, in addition, Judge Barbara Rosenberg was also a legal counsel and the attorney for
defendant Joseph Kemp in my January 5, 2015 TRO (DC-15-00066) hearing or proceeding. More
importantly, Judge Rosenberg, once she read the caption, that defendant Kemp was the
appellant, she should have recused herself from Kemp's appeal of my civil court case based on
her obvious conflict of interest. First, Judge Rosenberg represented defendant Kemp in my
2015 TRO proceeding where Judge Rosenberg was one of the attorneys representing the City
2

of Dallas and where Kemp was an agent in this hearing. Second, also in my August 8,2016, civil
case, Judge Rosenberg represented the City of Dallas and Defendant Kemp (DC-16-09551) when
I first commenced this same civil court case (which is the subject of this Appeal). In my initial
filing of my civil court case, the City of Dallas was a defendant and Joseph Kemp was a
defendant appeared and answered. I later removed the City of Dallas from my lawsuit.

When I discovered in October 2019 that Judge Barbara Rosenberg was one of the judges who
rendered the decision the 2018/ 2019 appeal case filed by Defendant Kemp, I became very
upset and I immediately filed a complaint with The Texas Judiciary Committee to document
her conflict of interest. The Texas Judiciary Committee monitors the conduct of Judges.

When I realized that Judge Barbara Elaine Rosenberg had not recused herself from the 2018
appeal case filed by Defendant/Kemp, as she should have and as provided by Rule 16(1) and
16 (2) of the Texas Rules of Appellate Procedure and Article 5-Sec 11 of the Texas Constitution,
when she was fully aware of who I was and our previous adverse relationship, conflict of
interest, where she as attorney had represented the City of Dallas, Texas and the defendant
Kemp in a proceeding where the parties were identical, the same property was in issue and the
parties relationships were in conflict.. I addition, also Judge Barbara Roseburg knew/knows
me personally, by name and sight because Judge Barbara Rosenberg sometimes attended the
Dallas County Democratic meeting where I was a precinct chair for area 3070 and she was
precinct chair for another area.

3

In addition, I am filing and seeking a rehearing of my petition for a writ of certiorari because I
believe the records documents the extreme bias " acts" and are a blatant examples of Judge
Rosenburg abuse of her judicial discretion.

One blatant example of these abuse "acts" examples are when Judge Barbara Rosenberg failed
or to challenge Defendant, Kemp's filing of an appeal in this case. The

lower Court trial

transcript documents that the defendant/Kemp's attorney did not preserve any evidence,
preserve any errors during the trial of my case. In fact, Ms. Ward, defendant Kemp's attorney
only made three 3 objections during the trial. Two specific objections were made for hearsay,
see, page 32 and 33 of transcript and one specific objection was made by Ms. Ward,
page 46 of the transcript where Ms. Ward made an

see

objection was made concerning my

testimonial evidence where I testified that Mr. Kemp demolition of the strip mall had been red
tagged by the City of Dallas. There was no ruling by the Court regarding this objection. A review
of the Appeal record documents the appeal filed by Defendant/Kemp's Appellate attorney's
appeal to the Fifth Circuit Court filed and presented in 2018 completely new arguments, to
wit, defendant appeal argument are as follows( 1) there is no evidence to support the District
Court finding of constructive eviction, (2) there is no Evidence of a Valid Land Lord Tenant
Relationship when the Plaintiffs abandoned the Premises and (3) there is not evidence that the
Plaintiff voluntarily abandoned the premises, these arguments which of course, were not
preserved errors during the trial and these arguments are not in the record. See my testimony
on pages 17-49 of the transcript where no objections to my testimony where I listed the many
acts of constructive eviction.

4

In my opinion, for the Fifth Circuit Court, to accept these arguments on appeal was especially
represents the first blatant example of "acts" which denied me my right to due process as
guaranteed by the 14th Amendment of the United States Constitution.

Generally, preserving error in the pleadings and during the trial is always done if an attorney
may have to appeal the trial court's decision. Next, that in order to preserve an error for
appeal, one must make an objection and obtain a ruling from the trial court.

As a general rule, an argument not first preserved in the trial court is not a proper basis for an
appeal. Properly, preserving an issue for an appeal requires a party to make timely and specific
objections and seek a ruling. See, Singleton v. Wuff 428 U. S. 106, 120 (1976). Generally, the
following steps must be used for an attorney within a trial for the preservation of error. State
the specific ground for the complaint. State a specific ground for the objection must be stated
or must be apparent from the context of the objection. See, Ford Motor Co., v Miles. 967 S. W
2d (Tex. 1988). In addition, the complaint raised on appeal must be the same as that presented
to the trial court. See, Pfeffer v. Southern Texas Laborer Pension Trust Fun, 699. S. S. 2d 691
Tex .App . Houston (1st Dist) 1984 writ ref d n.r. e. Additionally, an objection must be overruled
in order to preserve the error for review. Perez v. Baker Packers. 694, S.W. 2d 138, 141 (Tex.
App.) Houston 14th District (1985. None of objections preservation of error act occurred during
the trial of my case were done by the Defendant/Kemp's attorney, Ms Ward during the trial of
my case.

It is my contention that the fact that where the Fifth Circuit Court's decision was rendered in
my case where errors were not preserved in the record could only happen and could only be

5

accepted by the Fifth Circuit Court to render an adverse decision could only happens where a
judge, such as judge Barbara Rosenberg was bias and abused her judicial discretion. My case
is an example of this conduct. I believe the fact that an appeal was filed and a decision was
rendered by the Fifth Circuit Court where there were no errors preserved in the record and a
completely new argument was presented to the court which the court relied on to issue a
decision to reverse the lower court's decision only resulted where the judge Barbara Rosenberg
was bias and based on her allegiance to Defendant/Kemp and confirms her conflict of interest.
I believe the facts show that in my case this decision resulted

and was primarily based on

acts that prove that Judge Rosenburg's decision was tainted documents an example of Judge
Barbara Rosenberg bias, abuse of her judicial discretion and conflict of interest.

Acts where Judge Rosenberg abused her judicial discretion because her allegiance was more
to her former client, the defendant/Kemp. The defendant/Kemp who she represented as his
lawyer, his attorney, when she was attorney Barbara Rosenberg, as legal counsel for the City
of Dallas, and defendant/Kemp in the initial proceedings when I filed a TRO against Defendant
Kemp in January, 2015. The Fifth Circuit Court decisions documents and is a perfect example
of a blatant record which documents how my 14th Amendment right to due process and my
United States Constitutional right to due process was denied by the Fifth Circuit Court.

My need for rehearing is very pressing because my cases involves, the former lawyer for
defendant, Kemp who was represented the defendant Kemp when I filed a TRO a proceeding
that involved the same parties, the same property a continuing conflict which four (4) years
later found defendant/Kemp's former attorney now serving as a Judge i. e. Judge Barbara
Rosenberg in my case where she rendered a decision which reverse the trial court decision
6

rendered in my favor and then render an adverse appeal decision in favor of the Defendant
Kemp in my/this case The Fifth Circuit. Judge Rosenberg conflict of interest was still intact.
The record and Texas Appellate Procedure Rules and Texas Constitution provide Where Judge
Rosenberg was counsel a former lawyer for the Defendant Kemp in this same case disqualifies
her as a judge from rendering a decision in this Texas case. See, Johnson v. Johnson. 89 SW
1102 (Ct.App 1905). See Turner v. Chandler. 304 SW2nd.687 Tex. App. 1957.

Clearly, a denial of a granting of a Writ of Certiorari in my/ this case will result in a denial of my
due process rights and me obtaining any justice ever.
In addition, the Fifth Circuit Court of Texas will remain of record as a Court Decision where an
Appellate Court did not follow the Texas Appellate Court Rules or the Texas Constitution and
additionally , ignored the following in its review of my case,(l) failure of defendant, Kemp's
trial attorney to file any affirmative defenses during the trial (2) failure of Defendant Kemp's
trial attorney to preserve in the record any alleged the errors and obtaining a ruling from the
trial court regarding those errors i.e., records errors by making the prerequisite objections,
/

(3) where the facts show that a disqualified judge was allowed to render the final appeal
decision in my case.
More importantly, the denial of my right to due process is documented by a long list or other
wrongful determinations made by Fifth Circuit of Appeals Dallas, Texas in my case.
Finally, if I do not obtain a rehearing, it will only further bolster and support the long held belief
of my community, a historical and a proven record , that a member of my community, i.e.,
7

the African American community in Dallas, Texas cannot expect The Court of Appeals Fifth
Circuit Dallas, Texas to follow the Texas Rules of the Appellate Court or the Texas Constitution.
That the Fifth Circuit Court of Appeals Dallas, Texas and Texas Supreme Court will ignore that
fact that when a

judge should be disqualified the judge will not be disqualified

and

additionally, the judge will be allowed to render a decision based on her apparent and obvious
bias, conflict of interest and in a further abuse of her judicial discretion and where the judge
Barbara Rosenberg was the attorney and counsel for the defendant, Kemp i. e., in the same
case as the attorney who was involved in the initial litigation of my case i. e., as an attorney,
Barbara Rosenberg representing the defendant Kemp and the City of Dallas and furthermore,
another equally damaging fact where the record documents there were no errors preserved
in the record for the defendant Kemp to even file an appeal in the Fifth Circuit Court of Appeals,
Dallas, Texas.

For the foregoing reasons, my petition for rehearing should be granted.

Respectfully submitted,

SUBRINA LYNIM BRENHAM, PETITIONER, PRO SE

July 18, 2021

8

